                                                                NATIONAL SCIENCE FOUNDATION
                                                                 OFFICE OF INSPECTOR GENERAL
                                                                  OFFICE OF INVESTIGATIONS

                                                          CLOSEOUT MEMORANDUM

Case Number: A0367 W
                                                                                                11         Page 1 of 1



                       We received an allegation that the subject's funded NSF proposal' contained text and ideas
                       plagiarized from an NSF proposal2 she submitted a year earlier as the sole PI while employed at
                       another institution, the,                                                               .,     L                        .
                                             I                                              I
                                                                                                              1           L



              We learned t'hat:the s i ~ j e chad
             .*                                t been hired by the Company as a $art-time writer.to~assist'~n,the2 .:                          J


              preparation of.a:khase.~SBIR proposal. The':subjectyssupervisor at the Company worked:on the
              I



             ,project ivith the$ubjeb The supervisor explained that the subj6kt missed the NSF submission .r,.                    r'                  ..iT




    a     -:' deadline for'the SNSF proposal by several hours, and, consequently, the proposal~was   returned
              without review-!;As a~consequence,the Company released the subject. , The>supervisorexplained, , ,
                  %U




         c i.~h~wever;~.hh~th&ubject       submitted the .same almost identical prdposal .from & newinstitution 1     :I               %       --<-


              about a year later.                                                                 , - , , 6.
                                       ,'                                                                         *


                                       +                                               i

5,-9            d\siWereviewdd.the!subject's and the supervisor's proposal and awqd;histol;y:~.YiCecompared all t$e, . .
                                                                                       t:
                                                                                                                                                   .-
.       rL     ,,%relevantproposalis submitted by both to see what, if any materials;, may have:been.copied 'i. i . ' ..!     :
                                                                                                                              !                    .     &.




              I.: ,inappropriately.J h enoted'that the subject's earlier NSF proposal submitted:~hileattB~~i~~t~   - :I.   :.$* t.r
        ..       .-LGompany   was essentially the same as her later submitted NSF proposal from~her~presentii.: : t:. ::. ; !a2. :         .
                .: institution: ~odkver;because the subject was the sole PI on the earlier NSEproposaL thC'hvork1.if
                  --
                   v~as.her'work'andshe could use the materials again. If the subject's former erhployer; the:'
                   Company, had other expectations andlor agreements governing what employees could and could
                   not do with materials prepared and submitted in its name, then this is an issue for the Company
                   to resolve.

                       We found no evidence that the subject copied any materials inappropriately. The subject used
                       the materials submitted previously when she was the sole PI at the Company.

                       This case is closed and no further action will be taken.




ISF OIG Form 2 (1 1/02)
